TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Progress Has Been Made, but Additional
                       Improvements to the E-Help Desk
                       Are Needed to Support Expanding
                       Electronic Products and Services



                                           July 28, 2011

                              Reference Number: 2011-40-073




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


PROGRESS HAS BEEN MADE, BUT                           Service. Although the Level of Service is more
ADDITIONAL IMPROVEMENTS TO THE                        than 80 percent, the scheduling process for the
E-HELP DESK ARE NEEDED TO                             e-help Desk is labor intensive and inefficient.
SUPPORT EXPANDING ELECTRONIC                          Other IRS telephone call sites use the
                                                      E-Workforce Management (EWFM) System to
PRODUCTS AND SERVICES
                                                      schedule assistors, which provides automated
                                                      tools to forecast, schedule, and track call center
Highlights                                            workload and staffing requirements.
                                                      On October 1, 2007, a Customer Satisfaction
Final Report issued on July 28, 2011                  Survey was implemented. However, the Survey
                                                      results may not be reliable because the IRS
Highlights of Reference Number: 2011-40-073           cannot validate or verify the sample selection
to the Internal Revenue Service Commissioner          methodology and does not include all
for the Wage and Investment Division.                 customers. In addition, assistors are often
                                                      aware their calls have been selected for the
IMPACT ON TAXPAYERS                                   Survey. Without reliable information, the IRS
Customers who contact the e-help Desk may be          cannot provide a basis for comparing Program
experiencing difficulty registering for e-Services,   results with established performance goals.
transmitting an electronically filed tax return, or   In Fiscal Year 2010, there were 82,235
applying to be an Electronic Return Originator.       instances in which the assistors did not take the
Electronic products supported by the e-help           required steps to protect the confidentially of the
Desk include electronically filed tax returns and     taxpayer information they disclosed. Managers
e-Services such as the Electronic Federal Tax         are not holding employees accountable for not
Payment System and the Central Contractor             following required disclosure procedures.
Registration. Progress has been made, but
additional improvements to the e-help Desk are        A toll-free telephone line is not available for
needed to support expanding electronic                international calls to the e-help Desk.
products and services. Improvements needed            Furthermore, calls to the e-help Desk that are
relate to the protection of taxpayer data, the        not serviceable by the e-help Desk are
process of assessing customer satisfaction, and       increasing, which burdens taxpayers and wastes
other enhancements that can increase                  resources.
productivity and reduce customer burden.
                                                      WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                               TIGTA recommended and the IRS agreed to
This audit was a follow-up to a prior TIGTA           ensure: 1) funding for the implementation of the
review to determine whether the Internal              EWFM System is considered in the annual
Revenue Service (IRS) e-help Desk Program is          budget process; 2) oversight and accountability
providing quality customer service.                   is improved so managers consistently and
                                                      effectively complete required evaluative reviews
WHAT TIGTA FOUND                                      of assistors; 3) assistors use the electronic
                                                      version of the Authentication Disclosure Guide;
The IRS continues to recognize the need to
                                                      4) technological upgrades are used to improve
provide assistance to customers using
                                                      the Survey; 5) all calls are included in the
e-Services. The IRS has addressed the
                                                      population to be sampled for the Survey; 6) the
concerns reported in Fiscal Year 2007 and has
                                                      e-help Desk is considered in any plans the IRS
made improvements to the e-help Desk
                                                      has to fund toll-free service to international
Program. Foremost was the establishment of
                                                      callers; and 7) a study is completed to determine
the Electronic Products and Services Support
                                                      why the e-help Desk receives unrelated calls
organization.
                                                      and the action needed to reduce these calls.
Using an automated scheduling system could
save resources and improve the Level of
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               July 28, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Progress Has Been Made, but Additional
                             Improvements to the E-Help Desk Are Needed to Support Expanding
                             Electronic Products and Services (Audit # 201140007)

 This report presents the results of our review in determining whether the Internal Revenue
 Service e-help Desk Program is providing quality customer service. This audit is a follow-up to
 a prior Treasury Inspector General for Tax Administration review1 and is part of our Fiscal
 Year 2011 Annual Audit Plan. The audit addresses the major management challenge of
 Providing Quality Taxpayer Service
 Management’s complete response to the draft report is included as Appendix VIII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.




 1
  Improvements to the E-Help Desk Are Needed to Support Expanding Electronic Products and Services
 (Reference Number 2007-40-026, dated January 30, 2007).
                             Progress Has Been Made, but Additional Improvements
                              to the E-Help Desk Are Needed to Support Expanding
                                        Electronic Products and Services




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          The E-Help Desk Program Has Made Improvements
          to Customer Service ...................................................................................... Page 5
                    Recommendation 1:........................................................ Page 8

          Taxpayers Are at Risk of Having Their Tax Account
          Information Inadvertently Disclosed ............................................................ Page 8
                    Recommendation 2 and 3: ............................................... Page 12

          The E-Help Desk Program’s Customer Satisfaction
          Survey Results May Not Be Reliable ........................................................... Page 13
                    Recommendation 4 and 5: ............................................... Page 16

          A Toll-Free Telephone Line Is Not Available for
          International Calls to the E-Help Desk ......................................................... Page 16
                    Recommendation 6:........................................................ Page 17

          Calls to the E-Help Desk Unrelated to E-Services
          Are Increasing, Burdening Taxpayers, and Wasting
          E-Help Desk Resources ................................................................................ Page 18
                    Recommendation 7:........................................................ Page 19


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 20
          Appendix II – Major Contributors to This Report ........................................ Page 22
          Appendix III – Report Distribution List ....................................................... Page 23
          Appendix IV – Outcome Measures............................................................... Page 24
          Appendix V – Overview of the E-Help Desk Customer Satisfaction
          Survey Process .............................................................................................. Page 26
                   Progress Has Been Made, but Additional Improvements
                    to the E-Help Desk Are Needed to Support Expanding
                              Electronic Products and Services



Appendix VI – E-Help Desk Program Quality Measures ............................. Page 27
Appendix VII – Fiscal Years 2008 - 2010 Top 10 Services Provided by
the E-Help Desk ............................................................................................ Page 28
Appendix VIII – Management’s Response to the Draft Report ................... Page 30
                      Progress Has Been Made, but Additional Improvements
                       to the E-Help Desk Are Needed to Support Expanding
                                 Electronic Products and Services




                                  Abbreviations

CQRS                       Centralized Quality Review System
e-file(d), e-filing        Electronically file(d); electronic filing
EHSS                       E-Help Desk Support System
EPSS                       Electronic Products and Services Support
EWFM                       E-Workforce Management
IRS                        Internal Revenue Service
                          Progress Has Been Made, but Additional Improvements
                           to the E-Help Desk Are Needed to Support Expanding
                                     Electronic Products and Services




                                              Background

In Calendar Year 2010, nearly 100 million taxpayers opted to electronically file (e-file) their
Federal tax returns by preparing and filing their tax returns themselves using commercial tax
software, using the Internal Revenue Service’s (IRS) various e-filing products offered on its
public Internet site (IRS.gov), or by e-filing through a paid return preparer. To conduct business
electronically, including e-filing, the IRS developed a suite of web-based products, called
e-Services, which provides multiple electronic products and services to tax professionals. The
suite is not available to the general public; rather, only approved IRS business partners are
eligible to participate in e-Services. Figure 1 lists the e-Services products offered to tax
professionals.
                                      Figure 1: E-Services Products

    Disclosure        Eligible tax professionals may complete authorization forms, view and modify existing forms,
    Authorization     and receive acknowledgement of accepted submissions of tax returns immediately--all
                      online. Disclosure Authorization allows tax professionals to electronically submit a Power of
                      Attorney and Declaration of Representative (Form 2848) and Tax Information Authorization
                      (Form 8821). This e-Service expedites processing and issues a real-time acknowledgment
                      of accepted submissions.

    E-file            The IRS e-file Application can be completed using the Internet. Applications can be started
    Application       and saved in progress, and modifications to a firm's application can be made quickly and
                      easily without restarting the process. Users can check the status of the application as the
                      IRS makes updates to the suitability check. It also enables users to easily adapt their
                      application to the changes in their business. The Application allows management of all
                      Authorized IRS e-file Provider1 information in one place and it more easily updates the
                      information when changes occur.

    Electronic        Electronic Account Resolution allows tax professionals to expedite closure on clients’
    Account           account problems by electronically sending/receiving account related inquiries. Tax
    Resolution        professionals may inquire about individual or business account problems, refunds,
                      installment agreements, missing payments, or notices. Tax professionals must have a
                      power of attorney on file before accessing a client’s account. The IRS response is delivered
                      to a secure electronic mailbox within 3 business days.




1
  E-file Providers are individuals and businesses that facilitate e-filing and can be an Electronic Return Originator,
Intermediate Service Provider, Transmitter, or software developer. Electronic Return Originators originate the
electronic submission of income tax returns to the IRS. An Electronic Return Originator electronically submits
income tax returns that are either prepared by the Electronic Return Originator firm or received from a taxpayer.
Transmitters, once the return is prepared, send the income tax return to the IRS. Software Developers write the
e-file programs according to IRS file specifications and record layouts, making IRS e-file and Federal/State e-file
possible.
                                                                                                                Page 1
                         Progress Has Been Made, but Additional Improvements
                          to the E-Help Desk Are Needed to Support Expanding
                                    Electronic Products and Services



    Registration      All tax professionals who wish to use e-Services products must register online as individuals
                      to create an electronic account. The registration process is a one-time automated process
                      whereby the user selects a username, password, and Preparer Identification Number. Once
                      the registration information has been validated, the registrant will receive an on-screen
                      acknowledgement.

    Taxpayer          A prefiling service offered to payers and/or authorized agents who submit any of six
    Identification    information returns subject to backup withholding. With Interactive Taxpayer Identification
    Number            Matching, authorized payers can match up to 25 payee Taxpayer Identification Number and
    Matching          name combinations against IRS records prior to submitting an information return. Bulk
                      Taxpayer Identification Number Matching allows payers and/or authorized agents filing any
                      of the 6 information returns to match up to 100,000 Taxpayer Identification Number and
                      name combinations.

    Transcript        Eligible tax professionals may use the Transcript Delivery System to request and receive
    Delivery          account transcripts, wage and income documents, tax return transcripts, and verification of
    System            nonfiling letters for both individual and business taxpayers. Tax professionals must have a
                      power of attorney authorization on file with the IRS before accessing a client's account (or
                      use Disclosure Authorization to file an authorization on a new client and obtain Transcript
                      Delivery System information immediately).
Source: IRS.gov.

The IRS established the e-help Desk Program to assist customers with e-filing and e-Services.
Customers who contact the e-help Desk may be experiencing difficulty registering for
e-Services, transmitting an electronic tax return, or applying to be an Electronic Return
Originator. Electronic products and services supported by the e-help Desk include e-file and
e-Services, the Electronic Federal Tax Payment System, and the Central Contractor
Registration.2 Figure 2 provides a 4-year trend of calls serviced by each e-help Desk site.
                         Figure 2: Calls Answered by E-Help Desk Sites

                                      Fiscal Year          Fiscal Year      Fiscal Year        Fiscal Year
      E-Help Desk Site                   2007                 2008             2009               2010
      Andover, Massachusetts            119,660              134,556         108,801            128,790
      Austin, Texas                     133,493              156,089         185,552            215,444
      Cincinnati, Ohio                   69,504               60,756          29,697             43,990
      Ogden, Utah                        49,659               33,554          35,129             41,503
      Totals                            372,316              384,955         359,179            429,727
                                                         3
     Source: Enterprise Telephone Data Reporting System.


2
  The Electronic Federal Tax Payment System allows taxpayers and tax professionals to use the telephone, personal
computer software, or the Internet to initiate tax payments. The Central Contractor Registration is the means by
which contractors doing business with the Federal Government register.
3
  IRS data included in the figures in this report are provided for perspective only and were not validated.
                                                                                                          Page 2
                        Progress Has Been Made, but Additional Improvements
                         to the E-Help Desk Are Needed to Support Expanding
                                   Electronic Products and Services



In September 2010, the IRS added an additional e-help Desk site in Atlanta, Georgia, to meet the
increased volume of calls expected because of the e-file mandate included in the Worker,
Homeownership, and Business Assistance Act of 2009.4 As a result of the e-file mandate,
preparers were or will be required to start using IRS e-file beginning:
    •   January 1, 2011, for those preparers who anticipate preparing 100 or more Federal
        individual or trust tax returns during the year.
    •   January 1, 2012, for those preparers who anticipate preparing 11 or more Federal
        individual or trust tax returns during the year.

A prior audit identified improvements that were needed to support expanding IRS
electronic products and services
In Fiscal Year 2007, the Treasury Inspector General for Tax Administration reported that
continued expansion in the availability and use of e-Services required that improvements be
made to ensure the e-help Desk Program can continue to provide effective customer service.5
We recommended and the IRS agreed to:
    1) Develop a process to ensure customer satisfaction is timely measured.
    2) Develop quality measures as well as a process to assess progress towards achieving the
       measures.
    3) Develop processes and procedures to ensure predefined solutions are accurately
       developed, timely monitored, and appropriately approved.
    4) Develop processes and procedures to ensure management information is complete and
       accurate.
    5) Develop a process to ensure assistors complete required training.
    6) Realign e-help Desk Program assistors under the Business Strategy and Business
       Architect office.
This audit was performed in the Wage and Investment Division Customer Account Services
function in the Atlanta, Georgia; Andover, Massachusetts; and Austin, Texas, Campuses6 and at
the Strategy and Finance function in Atlanta, Georgia, during the period October 2010 through
April 2011. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to


4
  Pub. L No. 111-92, 123 Stat. 2984.
5
  Improvements to the E-Help Desk Are Needed to Support Expanding Electronic Products and Services (Reference
Number 2007-40-026, dated January 30, 2007).
6
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 3
                    Progress Has Been Made, but Additional Improvements
                     to the E-Help Desk Are Needed to Support Expanding
                               Electronic Products and Services



obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 4
                       Progress Has Been Made, but Additional Improvements
                        to the E-Help Desk Are Needed to Support Expanding
                                  Electronic Products and Services




                                   Results of Review

The E-Help Desk Program Has Made Improvements to Customer
Service
The IRS continues to recognize the need to provide customers with the ability to obtain
assistance when using e-Services. Over the last 3 years,
the IRS has addressed the concerns reported in Fiscal
Year 2007 and has made improvements to the e-help
Desk Program. Foremost was the establishment of the
Electronic Products and Services Support (EPSS)
organization in October 2007 under the Customer
Accounts Services function within the Wage and
Investment Division. The EPSS organization is
responsible for both the e-help Desk assistors and the
                                                              The EPSS organization’s vision
related policies and procedures. The EPSS organization’s        is to advance IRS electronic
vision is to advance IRS electronic business opportunities    business opportunities to meet
to meet the changing demands of the future while               the changing demands of the
delivering a positive customer experience. Its mission is to      future while delivering a
support customer-valued e-solutions for service-wide          positive  customer experience.
electronic products and services. 
The many improvements made to the e-help Desk are critical to the continued success of the
e-help Desk Program in providing quality customer service while meeting the increase in
demand for its service. According to the IRS, 21,493 new preparers will be requesting to be part
of the e-file Program in Fiscal Year 2011 and 85,310 in Fiscal Year 2012.
A Customer Satisfaction Survey was implemented
On October 1, 2007, the EPSS organization implemented a Customer Satisfaction Survey (also
referred to as the Survey) designed to provide statistical results on the quality of service provided
by the e-help Desk Program. The Survey is part of the IRS’s balanced performance measures to
support achievement of its strategic goal to provide quality service to each taxpayer.
The e-help Desk Customer Satisfaction Survey is one of the agency-wide customer satisfaction
surveys conducted by an outside contractor. The e-help Desk Program uses the same
methodology and technology used by the IRS’s main toll-free telephone lines. The contractor
provides the selection methodology and plan. Telephone analysts select the calls and assistors
ask callers if they would like to participate. If the caller agrees, the assistor transfers the caller to


                                                                                                  Page 5
                        Progress Has Been Made, but Additional Improvements
                         to the E-Help Desk Are Needed to Support Expanding
                                   Electronic Products and Services



an automated survey system. The contractor provides the results to the IRS quarterly and
annually. Appendix V presents a detailed flowchart of the Survey process.
Quality measures and a process to assess progress towards achieving the measures were
developed
The EPSS organization adopted the IRS’s Embedded Quality Measures and the Centralized
Quality Review System (CQRS)7 to gauge the quality of customer service the e-help Desk
assistors provide to callers. The Embedded Quality Measures include Customer Accuracy,
Procedural Accuracy, Professionalism, Regulatory Accuracy, and Timeliness.8 In Fiscal
Year 2010, the e-help Desk Program achieved 91.3 percent in Customer Accuracy.
The EPSS organization also adopted many of the IRS’s toll-free telephone lines measures.
These include Level of Service (percentage of callers who wish to speak to an assistor and who
actually speak with one) and Average Speed of Answer (the average number of seconds
taxpayers waited in the queue (on hold) before receiving services).
Even though the number of calls has increased 20 percent from Fiscal Year 2009 to 2010 (from
359,179 to 429,727), the Level of Service for the e-help Desk Program has been more than
80 percent. For Fiscal Year 2011, as of March 5, 2011, e-help Desks assistors had assisted
232,830 callers. The Level of Service for this same time period was 81.2 percent. Figure 3
shows the goals and achievements for Fiscal Years 2010 and 2011.
                           Figure 3: E-Help Desk Program Measures

                                                       2010            2010         2011       2011
        Measure                                        Goal           Actual        Goal      Actual*
        Level of Service                                82%            83.4%         82%       81.2%
        Average Speed of Answer (seconds)             Baseline          316          360        343
        First Contact Resolution                     Baseline          93.8%        92.5%     94.70%
      Source: IRS Enterprise Telephone Data Reporting System. *Level of Service and Average Speed of Answer
      data are from October 1, 2010, through March 5, 2011. First Contact Resolution is cumulative data through
      February 28, 2011.

Using an automated scheduling system could save resources and improve the Level of Service
Although the Level of Service is more than 80 percent, the scheduling process for the e-help
Desk is labor intensive and inefficient. In addition, analysts are part of a tiered scheduling



7
  The CQRS provides an independent quality review service nationwide for the various programs where taxpayers
contact the IRS with an inquiry.
8
  See Appendix VI for definitions of these measures.
                                                                                                        Page 6
                     Progress Has Been Made, but Additional Improvements
                      to the E-Help Desk Are Needed to Support Expanding
                                Electronic Products and Services



process and may have other duties and assignments. Therefore, they might not be available for
the scheduling changes.
Other IRS telephone call sites use the E-Workforce Management (EWFM) System to schedule
assistors. It is a comprehensive resource planning and workforce management application that
provides automated tools to forecast, schedule, and track call center workload and staffing
requirements. Using this System, management can predict contact volumes, automatically create
detailed schedules to ensure the assistors’ workload is balanced, and assign schedules to assistors
based on skills and experience.
The IRS rolled out the EWFM System to a number of call sites in October 2007 and provided
EPSS organization management with a Service Level Agreement for system implementation. At
that time, the EPSS organization decided it could not give up the resources needed to operate the
System. Currently, EPSS organization officials advised us that implementation is dependent on
acquiring additional funding, but they could not provide the associated costs.
The EWFM System would improve service to callers of the e-help Desk by ensuring staffing is
sufficient to respond to calls. Customer Satisfaction Survey results show that 12 percent of those
surveyed are dissatisfied with the amount of time they wait to receive assistance from the e-help
Desk.
Processes and procedures were developed to ensure predefined solutions are accurately
developed, timely monitored, and appropriately approved
The EPSS organization created procedures for updating and maintaining the E-Help Desk
Support System (EHSS) solutions used by assistors to address customer questions. The solutions
contain responses to frequently asked questions and information from IRS publications and
related manuals. An annual certification process was developed to ensure all solutions contain
current and accurate information.
The e-help Desk Program has grown as IRS electronic products have grown. For example,
assistors respond to issues concerning registration; e-filing individual, estate and trust,
partnership, and corporate tax returns; the Electronic Federal Tax Payment System; or using any
of the e-Services products. As new products are developed, the e-help Desk partners with other
business owners to develop solutions to ensure assistors provide accurate and consistent
responses and resolve the caller’s issues. All new solutions are approved by the Solutions Board,
which is comprised of subject matter experts. The Board also meets annually and completes a
certification process whereby each solution is reviewed for accuracy by both the Board and by
the respective business owners. It is a quality assurance process that is augmented by the CQRS
statistical review team that continuously reviews the accuracy of solutions used by assistors.
A process to ensure assistors complete required training was implemented
In Fiscal Year 2008, the EPSS organization began using the Enterprise Learning Management
System to track assistors’ training history. The training history is used to staff e-help Desk

                                                                                            Page 7
                         Progress Has Been Made, but Additional Improvements
                          to the E-Help Desk Are Needed to Support Expanding
                                    Electronic Products and Services



telephones and to ensure assistors are staffed only on telephone applications for which they are
trained. Refresher training lessons were developed using quality data, and lessons were designed
for the experienced assistors to ensure performance continues to grow and improve.
Currently, the EPSS organization is supporting the e-file mandate and has processed an increased
volume of e-file applications. In addition, the EPSS organization partnered with the Electronic
Tax Administration to create the Preparer e-file Hardship Waiver Request (Form 8944). The
EPSS organization proactively partnered with the Modernization and Information Technology
Services organization to create a database to house Form 8944 data and systemically generate
acceptance and denial letters.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should ensure
funding for the implementation of the EWFM System is considered in the annual budget process.
         Management’s Response: IRS management agreed with this recommendation.
         Currently, the EPSS organization has an effective forecasting and scheduling process in
         place that allows it to deliver and exceed its measures. The EWFM System is scheduled
         to be upgraded in July 2011, pending approved funding. The proposed upgrade includes
         hardware to address capacity issues and software to provide additional functionality.
         After the EWFM System has been upgraded and the IRS has observed its performance, it
         will reevaluate the feasibility of adding the EPSS organization to the EWFM System.

Taxpayers Are at Risk of Having Their Tax Account Information
Inadvertently Disclosed
Assistors do not always establish the identity of callers before disclosing tax account
information. Of the 429,727 calls received in Fiscal Year 2010, 300,633 (70 percent) required
that assistors disclose tax account information. In 82,235 (27 percent) of 300,633 instances,
assistors did not take the required steps to authenticate the callers’ identities to ensure they were
authorized to receive the tax account information.9 This happened because assistors did not
always follow IRS authentication procedures, managers did not always monitor the number of
calls they are required to review, and managers did not always hold the assistors accountable
when procedures were not followed. In addition, assistors are not required to use the
Authentication and Authorization Job Aid10 to authenticate callers.



9
  The total disclosure opportunities and errors are projected based on the CQRS Fiscal Year 2010 statistical sample
results.
10
   The Job Aid provides e-help Desk assistors with a disclosure job aid that systematically directs their efforts in
establishing the identity of callers.
                                                                                                             Page 8
                           Progress Has Been Made, but Additional Improvements
                            to the E-Help Desk Are Needed to Support Expanding
                                      Electronic Products and Services



Assistors are required to ask the caller their name or company name; Taxpayer Identification
Number (Employer Identification Number, Individual Taxpayer Identification Number, or Social
Security Number); and in some instances their address, date of birth, and filing status.
Additional probes are sometimes required. Also, unique to the e-help Desk are the various types
of e-file Providers requiring authentication, including Electronic Return Originators,
Transmitters, attorneys, large corporations, and financial institutions. Depending on the purpose
of their call (e.g., e-file application, individual e-file, or e-Services registration), the combination
of authentication questions assistors are required to ask vary.
Improper disclosure of tax information by e-help Desk Program assistors has been one of the top
errors reported since formal tracking began in February 2008. The authentication error rate,
when assistors continue to disclose information to an unauthorized third-party caller after the
assistor obtained information that revealed the caller was not authorized, was 37.0 percent from
February to September 2008. The error rate for not following authentication procedures was
45.4 percent for the same time period. Figure 4 presents Fiscal Year 2010 error rates and a
projection of the occurrences of these errors to the total calls that require or would require
authentication.
                Figure 4: Fiscal Year 2010 Estimate of Total Disclosure Errors
                              Based on CQRS Statistical Sample

                                                                          Calls Requiring
                                                         Error Rate            Caller                Projected
              Description of the Error                   per CQRS         Authentication11            Errors12
     Assistor determines the caller is not the
     taxpayer (through research or other                   37.2%                19,552                  7,269
     means), but still discloses tax information.
     Assistor did not follow authentication
     procedures before discussing tax account              26.7%                292,612                78,041
     information.
     Source: CQRS quarterly reports.

Examples of tax account information that was disclosed included the amount of Adjusted Gross
Income, information regarding rejected tax returns, Employment Identification Numbers, and
information about a spouse’s prior year return. Taxpayer privacy and security are at risk for
potentially 82,235 calls annually; 411,175 taxpayers over 5 years. IRS officials are concerned
with the error rate and have already implemented an action plan. Although more work remains,
as of March 31, 2011, the error rates have decreased from 37.2 to 32.0 percent and from 26.7 to
22.0 percent.

11
   The total 312,164 calls requiring authentication as per Figure 4 relate to only 300,633 calls as some calls involved
both error types.
12
   The total 85,310 errors shown relate to 82,235 calls as some calls will involve both types of errors.
                                                                                                                Page 9
                      Progress Has Been Made, but Additional Improvements
                       to the E-Help Desk Are Needed to Support Expanding
                                 Electronic Products and Services



Managers do not always conduct the required call monitoring reviews
Managers were required to conduct 14 reviews for each assistor for the period July 2010 through
January 2011. These reviews are to evaluate the assistor’s performance and ensure the assistor is
providing quality service. IRS data show that managers only completed 1,070 (54 percent) of
1,974 required reviews of 141 assistors. There are reasons the required number of reviews are
not completed. For example, some reviews are not performed if the assistor is in training and not
working the e-help Desk. However, documentation was not sufficient to determine when those
instances were applicable.
Two managers in the e-help Desk Program stated that they did not complete and track all reviews
because of competing demands on their time. In other instances, managers did maintain the
required documentation that showed two required monthly reviews were being completed. The
prior Treasury Inspector General for Tax Administration review also reported that there were no
procedures in place to ensure reviews were being completed.

Managers are not holding assistors accountable for not following authentication
procedures
For 38 end-of-year evaluations issued between May 2010 and January 2011, 21 (55 percent)
contained disclosure ratings that, according to the guidelines, were above the ratings the
employees should have received. The disclosure errors identified should have precluded
assistors receiving the higher rating.
Evaluations provide a framework for communicating to e-help Desk Program employees the
performance expectations that are intended to promote the achievement of IRS strategic goals.
Figure 5 shows the employee performance monitoring and evaluative process that e-help Desk
Program managers are required to follow to assess the assistors’ adherence to procedures for
authenticating callers before disclosing tax information.
               Figure 5: Managers’ Monitoring and Evaluation Process




          Source: Internal Revenue Manual guidelines for managers.

                                                                                         Page 10
                         Progress Has Been Made, but Additional Improvements
                          to the E-Help Desk Are Needed to Support Expanding
                                    Electronic Products and Services



The Performance Plan13 for e-help Desk Program assistors includes the critical job element
Security and Disclosure. To receive an “Exceeds” rating, the critical job element states the
assistor must always, without exception, adhere to all disclosure policies. Employees should be
held accountable when not following IRS procedures to ensure appropriate corrective actions are
taken. Instead, employees are receiving higher ratings in their annual evaluations. This can
result in assistors being awarded with cash and time off.

Assistors are not required to use the Authentication and Authorization Job Aid
In January 2009, EPSS organization management developed the e-help Desk Program
Authentication and Authorization Job Aid. The implementation of the Job Aid brought marked
improvement to the number of disclosure errors. To increase the ease of use of the Job Aid, links
were added to the EHSS giving assistors access to the Job Aid via their computers.
Despite the effectiveness of the Authentication and Authorization Job Aid, assistors are not
required to use it. To require its use and to use it in the evaluative process, the IRS would have
to first negotiate with the National Treasury Employees Union.

Inadvertent disclosures are not always being appropriately reported
When sensitive information is lost, stolen, or inadvertently disclosed in any way, whether it be
                                          electronically, verbally, or in hardcopy form, IRS
 Personally Identifiable Information      employees are required to report the incident within
 includes an individual’s:                1 hour. When disclosure incidents involving
 • Name.                                  Personally Identifiable Information occur, the incident
 • Address.                               is reported to the Computer Security Incident Response
 • E-mail Address.
                                          Center.14 IRS employees report the incident using the
 • Social Security Number.
 • Telephone Number.                      Computer Security Incident Response Center online
 • Bank Account Number.                   reporting form or by calling (866) 216-4809.
 • Date and Place of Birth.               Subsequently, the IRS decides if the incident involved
 • Mother’s Maiden Name.                  Personally Identifiable Information and if there is likely
 • Biometric Data (i.e., height, weight,  harm to the taxpayer.
      eye color, fingerprints, etc.).
                                            For the period May 1, 2010,15 through
                                            January 31, 2011, managers identified 17 disclosures
during their reviews of assistor calls. In addition, for Fiscal Year 2010, CQRS reviewers

13
   Performance Plan For Tax Examiner (Measured) GS-0592 Including the Retention Standard for the Fair and
Equitable Treatment of Taxpayers and Critical Job Elements, Document 11496 (Rev. 5-2005), Catalog
Number 32153W.
14
   The Computer Security Incident Response Center is a centralized reporting facility for all computer security
privacy incidents.
15
   May 2010 was the first month that managers were performing reviews under the Embedded Quality Review
System, which aligns with attributes of the CQRS.
                                                                                                          Page 11
                     Progress Has Been Made, but Additional Improvements
                      to the E-Help Desk Are Needed to Support Expanding
                                Electronic Products and Services



identified 87 disclosures. Of these 104 instances where the assistor was determined to have
disclosed tax information to an unauthorized third party, only 2 (less than 2 percent) incidents
were appropriately reported to the Privacy, Information Protection, and Data Security office.
In March 2010, managers were reminded of the need to ensure incident reporting and of the form
used to report unauthorized disclosures identified by managers or reviewers. After discussing
the issue with IRS management, they immediately initiated corrective actions, including taking
steps to create a job aid to share with all managers. A tracking log was also developed.
Management assistants will document the information to the log and the log will be reviewed by
the operation manager to ensure all required information has been documented.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 2: Improve oversight and accountability to ensure managers consistently
and effectively complete the required evaluative reviews and hold employees accountable when
they do not follow required procedures.
       Management’s Response: IRS management agreed with this recommendation. The
       EPSS organization has issued procedures to ensure managers evaluate all employees
       consistently and effectively. Although the Centralized Quality Review System staff has
       been reviewing assistors using Embedded Quality since February 2008, managers only
       began using Embedded Quality in May of 2010. The implementation of managerial
       review through Embedded Quality, and subsequent and ongoing training of managers and
       leads, has resulted in improved employee performance in both customer accuracy and
       disclosure.
       Regarding oversight and accountability, in Fiscal Year 2011, the e-help Desk Program
       required all managers to commit to the accurate completion of the required number of
       evaluative reviews each month for all employees. Additionally, a Disclosure
       Improvement Plan was created and implemented. The plan includes additional disclosure
       training for managers and employees and initiatives to increase focus on the importance
       of adhering to disclosure procedures. Finally, numerous reports are in place to notify
       management of the number of evaluative reviews performed each month, quality trends,
       and recommendations for improvement.
Recommendation 3: Require that assistors use the electronic version of the Authentication
and Authorization Job Aid to authenticate callers.
       Management’s Response: IRS management agreed with this recommendation. On
       April 26, 2011, the EPSS organization notified the National Treasury Employees Union
       of the IRS’s intention to make the electronic version of the e-help Authentication and
       Authorization Job Aid mandatory for all e-help Desk phone calls.

                                                                                           Page 12
                           Progress Has Been Made, but Additional Improvements
                            to the E-Help Desk Are Needed to Support Expanding
                                      Electronic Products and Services



The E-Help Desk Program’s Customer Satisfaction Survey Results
May Not Be Reliable
The e-help Desk Program uses the same sampling methodology used by the main IRS toll-free
telephone lines. However, the e-help Desk Program does not consistently follow the required
sampling methodology and does not include all customers. As a result, the IRS cannot validate
or verify the sample selection methodology or Survey results to ensure they are reliable. In
addition, assistors are also aware their calls have been selected for the Survey. Therefore, the
Survey should not be regarded as a valid sample of all customers interacting with the e-help
Desk. Without reliable information, the IRS cannot provide a basis for comparing Program
results with the established performance goals.

The Survey sample selection techniques are not consistently followed and risk
introducing bias
Procedures state that to ensure the random distribution of the callers surveyed, it is necessary for
the attempts to be made as scheduled and not to exceed the one-half hour window. Analysts do
not always adhere to the schedule for various reasons, including performing other duties and
assignments.
Tests showed survey results may not be representative of e-help Desk customers, for example:
       •   81 percent of those surveyed in Fiscal Year 2010 were callers with questions related to
           e-Services. However, the calls to the e-help Desk Program in Fiscal Year 2010 show that
           only 47 percent of the calls were related to e-Services issues.16 IRS officials stated this
           might happen because e-Services is first on the Survey menu of choices and that callers
           usually select the first option, rather than listen to all menu choices.
       •   6 percent of the Survey respondents indicated that they called the e-help Desk Program
           about U.S. Individual Income Tax Return (Form 1040) e-file. Twenty-one percent of the
           calls to the e-help Desk Program during Fiscal Year 2010 were about Form 1040 e-file.
There are a number of other “products” or types of service provided by the e-help Desk Program
that are underrepresented in the Survey results. For example, Survey respondents with respect to
the Central Contractor Registration and the Electronic Federal Tax Payment System comprise
respectively 1 percent each, or a total of 2 percent, of the Fiscal Year 2010 total Survey
respondents. However, these type calls respectively account for 6 and 7 percent, or combined for
13 percent, of the Fiscal Year 2010 calls to the e-help Desk. Five percent of those surveyed are
counted as “Other,” with no explanation provided of this category.




16
     See Appendix VII for the top 10 services provided by the e-help Desk for Fiscal Years 2008, 2009, and 2010.
                                                                                                           Page 13
                      Progress Has Been Made, but Additional Improvements
                       to the E-Help Desk Are Needed to Support Expanding
                                 Electronic Products and Services



Although there is no way to quantify the level to which the analysts are unable to adhere to the
sample plan, for Fiscal Years 2008 through 2010 the
planned number of attempts to solicit participation in the     Attempts to solicit participation
Survey has fallen 14 percent on average below the                      in the e-help Desk
planned level. In addition, the sample selections are not       Customer Satisfaction Survey
always being selected at the scheduled times to ensure        have fallen 14 percent on average
randomness of selection.                                           below the planned level.

An analyst is required to monitor anywhere from
1 to 12 calls in a one-half hour period. The IRS estimates calls average approximately
11.5 minutes. At times, one analyst has to cover for another, and time slots can overlap due to
time zone issues.
Further, there are no controls to ensure the assistor actually transfers the caller to the automated
Survey system. It is the e-help Desk assistor who solicits customer participation in the Survey
and transfers customers agreeing to participate to the Survey system. Due to time constraints,
once the analyst notifies the assistor that the call has been selected for the Survey, the analyst
will not always stay and listen to ensure the call is actually transferred to the automated Survey.
Discussions with assistors indicated that they sometimes forget to ask the caller to participate and
were aware of instances where the assistor purposefully did not offer the Survey to a caller.

The process of monitoring calls selected for the Survey is inefficient and costly,
excluding a population of callers from the Survey
Current procedures and technology require that an analyst monitor calls to alert assistors they
need to solicit the caller’s participation in the Customer Satisfaction Survey. In Fiscal
Year 2010, 1,525 hours were devoted to monitoring calls for the Survey. An automated process
would eliminate the need for the analysts to perform this function and result in more efficient use
of resources. The IRS estimates that the hourly rate for an analyst in Fiscal Year 2010 was
$29.76. Without corrective action, this inefficient use of resources equals $45,384 annually and
$226,920 over 5 years.
There are two technological options available that would eliminate the need for an analyst to
monitor calls and, therefore, free up the analyst to perform other tasks. The options would
involve modification of the current telephone system and either could be available for use by the
e-help Desk by October 2011 at no cost to the EPSS organization.
Option 1: Callers are presented the option to complete the Survey either before the call enters
          the queue or while it is in the queue. The system would control the percentage of
          callers offered the option based on business requirements. Percentages could be set
          by product line or application based on business requirements. Information would be
          sent to the assistor teleset letting the assistor know the caller has opted to participate
          in the Survey. Assistors would need to look at the teleset to successfully execute the

                                                                                            Page 14
                       Progress Has Been Made, but Additional Improvements
                        to the E-Help Desk Are Needed to Support Expanding
                                  Electronic Products and Services



           Survey process. In addition, assistors would know when the call arrived and that the
           caller is opting to participate in the Survey.
Option 2: The system would flag a percentage of calls for the Survey based on business
          requirements. The assistor would offer the Survey to the customer at the end of their
          calls and transfer the callers to the automated Survey system if they opt to participate.
          Information would be sent to the assistor teleset letting the assistor know they need to
          offer the Survey to the caller at the completion of the call. Assistors would need to
          look at the teleset to successfully execute the Survey process.
The Customer Satisfaction Survey selection methodology does not include all e-help Desk
customers
Because analysts do not work weekends and extended weekly hours, the Survey is not offered to
those who call during those times. It is also not offered to customers who do not speak English.
Figure 6 shows that in Fiscal Years 2008 to 2010, about 10 percent of the calls were excluded
from the Survey.
                    Figure 6: Fiscal Years 2008–2010 Call Volumes
                   Excluded From the Customer Satisfaction Survey

                                                                       Excluded Calls
                          Extended                       Total Calls   as a Percentage
              Fiscal       Weekly                         Excluded          of the
               Year        Hours         Saturday       From Survey       Total Calls

               2008         21,314         8,368            29,682         7.71%
               2009         19,136         7,368            26,504         7.38%
               2010         21,814         7,618            29,432         6.85%
                                      Spanish Speaking Callers
               2008                                         13,887         3.61%
               2009                                         13,768         3.83%
               2010                                         14,943         3.48%
            Source: Enterprise Telephone Data Reporting System.

The universe of callers should include the approximately 10 percent of calls that are made during
the weekend or by Spanish-speaking taxpayers. Without the representation of the weekend and
Spanish-speaking callers, the results are not representative and should be qualified. However, if
either of the technological options discussed above is adopted, the weekend and extended hours
callers could be included as no analysts would be needed to facilitate the process. Modification
of the Survey to include Spanish-speaking callers would require an investment of
approximately $2,000.

                                                                                           Page 15
                      Progress Has Been Made, but Additional Improvements
                       to the E-Help Desk Are Needed to Support Expanding
                                 Electronic Products and Services



Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 4: As funding becomes available, ensure that technology is used to
improve the efficiency of the Customer Satisfaction Survey and to automate the process of
transferring calls to the automated Survey.
       Management’s Response: IRS management agreed with this recommendation.
       Although they believe the current manual process for delivering the Customer
       Satisfaction Survey is sound, the IRS acknowledged that automation of the Survey would
       reduce the potential for bias.
       Although funding is currently not available for full survey automation, there are efforts in
       place to make improvements to Survey delivery. The e-help Customer Satisfaction
       Survey is included, along with other IRS telephone surveys, in the Change Request being
       prioritized for this effort at this time. The IRS will continue to seek improvements to
       e-help Desk Survey delivery.
Recommendation 5: Once the Survey has been automated to exclude the need of the analyst,
ensure all calls, including calls coming in during extended weekday hours and on Saturdays, are
included in the population to be sampled for the Customer Satisfaction Survey.
       Management’s Response: IRS management agreed with this recommendation. The
       partial automation of the selection of calls for the Customer Satisfaction Survey will
       allow the EPSS organization to systemically include all calls in the Survey. In the
       unlikely event that the Survey cannot be partially automated, the EPSS organization will
       hire an additional telephone system analyst with a tour of duty that will allow coverage
       for full weekday hours of operation. Efforts will be made to ensure weekend coverage
       during peak season.

A Toll-Free Telephone Line Is Not Available for International Calls to
the E-Help Desk
The IRS has developed a number of customer service initiatives as a part of its strategy for
international tax administration, but international callers to the e-help Desk, unlike callers living
in the United States, incur an average cost of $1.49 per minute to call the e-help Desk. Even
though international calls are routed to the next available assistor to shorten the time these callers
are on the telephone with the e-help Desk, calls last on average approximately 11.5 minutes.
Although the volume of international calls is less than 1 percent of all calls to the e-help Desk,
the volume of international calls has increased by 51 percent since Fiscal Year 2007. Figure 7
shows the call volume of international calls received in Fiscal Years 2007 through 2010.


                                                                                             Page 16
                         Progress Has Been Made, but Additional Improvements
                          to the E-Help Desk Are Needed to Support Expanding
                                    Electronic Products and Services



                                Figure 7: Fiscal Years 2007–2010
                          International Call Volumes to the E-Help Desk

                                            Calls Made to the        Calls Serviced by
                          Fiscal Year         E-Help Desk            the E-Help Desk17
                              2007                 2,077                     2,032
                              2008                 3,237                     3,174
                              2009                 2,779                     2,735
                              2010                 3,130                     2,787
                          Source: Enterprise Telephone Data Reporting System.

Based on the Fiscal Years 2007 through 2010 call data, an average of 2,806 international callers
per year were burdened due to the lack of a toll-free option for calling the e-help Desk. Without
corrective action, this figure is projected to reach 14,030 over 5 years. This volume is also
expected to increase because of the e-file mandate.
The IRS initiated an International Toll-Free Project to address international taxpayers’ access to
IRS services. In April 2009, the Project team met and drafted the Business Capabilities
Definition template to obtain preliminary costing information. A preliminary estimate of startup
costs ranged from $1.5 million to $3.5 million, with estimated annual recurring telephone usage
costs of $7.8 million. However, these activities were limited to offering international toll-free
telephone services for Accounts Management function18 and National Taxpayer Advocate
activities to American taxpayers residing in 10 specific foreign countries. Due to budgetary
constraints, the initiative is currently in suspense mode pending funding.

Recommendation
Recommendation 6: The Commissioner, Wage and Investment Division, should ensure that
the e-help Desk is considered in any plans the IRS has to fund toll-free service to international
callers.
         Management’s Response: IRS management agreed with this recommendation. At
         this time, however, due to the exceptionally high cost of providing toll-free service to
         international callers, the International Toll-Free Project will not be implemented due to
         budget limitations. If funds are made available in the future for this project,
         consideration will be given to including the e-help Desk customer base in the project.

17
   Difference between calls made to the e-help Desk and calls serviced is the number of callers that abandon the call
prior to an assistor answering the call.
18
   The Accounts Management function provides customer service by responding to taxpayer questions and helping
them understand and meet their tax responsibilities.

                                                                                                            Page 17
                     Progress Has Been Made, but Additional Improvements
                      to the E-Help Desk Are Needed to Support Expanding
                                Electronic Products and Services



Calls to the E-Help Desk Unrelated to E-Services Are Increasing,
Burdening Taxpayers, and Wasting E-Help Desk Resources
During Fiscal Year 2010, 10 percent (42,387 of 429,727) of assistor calls were from individuals
with issues unrelated to those services provided by e-help Desk assistors. This volume has
increased 105 percent from Fiscal Years 2008 to 2010. Figure 8 shows the volume of unrelated
calls from Fiscal Years 2008 through 2010.
                Figure 8: Volume of Unrelated Calls to the E-Help Desk
                        for Fiscal Year 2008 – Fiscal Year 2010




                 Source: The EHSS.

The EPSS organization does not know why the e-help Desk is receiving these unrelated calls, but
officials stated that callers often indicate that they were referred by the IRS Customer Service
function responsible for handling individual taxpayers. The e-help Desk does not handle calls
from individual taxpayers who, for example, call about their individual tax returns.
The e-help Desk Program has taken steps to stop other IRS functions from inappropriately
referring customers to the e-help Desk, including distributing a brochure to e-help Desk
customers that specifically states that the e-help Desk does not address account issues. It has
also issued email alerts to e-help Desk customers. Although the IRS does not maintain
information on what IRS function these callers should have called for assistance, this information
would be useful for designing recorded announcements to alert affected callers, at the beginning
of the calls, of the appropriate number to call for specific issues not covered by the e-help Desk.
Unrelated calls tie up assistors’ time and result in an inefficient use of resources. The IRS
estimates that on average each call answered by an assistor costs the Federal Government
$37.14. Therefore, the 42,387 unsupported calls in Fiscal Year 2010 resulted in the expenditure
of $1,574,253, a figure that over 5 years is projected to reach $7,871,265. Additionally,
unsupported calls increase the risk that callers could receive incorrect assistance because e-help

                                                                                           Page 18
                        Progress Has Been Made, but Additional Improvements
                         to the E-Help Desk Are Needed to Support Expanding
                                   Electronic Products and Services



Desk assistors could attempt to assist these callers with matters outside of their training. These
callers can also be incorrectly transferred.

Recommendation
Recommendation 7: The Commissioner, Wage and Investment Division, should conduct a
study to determine why the e-help Desk receives unrelated calls so that the EPSS organization
can decide the best correction action to take to reduce the number of calls.
        Management’s Response: IRS management agreed with this recommendation. The
        IRS will conduct a study to determine the reasons for the high volume of misdirected
        calls. Because the highest volume of misdirected calls occurs during the filing season,
        the study will take place between January 15 and April 15, 2012. By December 31, 2011,
        the EPSS organization will develop a research plan and collaborate with Contact
        Analytics19 Center of Excellence to identify calls where customers are referred to the
        e-help Desk inappropriately. Prior to the completion of the study, the EPSS organization
        will continue to address “Quick Fix” opportunities and make recommendations to other
        business units to reduce the number of misdirected referrals when appropriate.




19
  Contact Analytics is a computer software program that examines audio from thousands of recorded telephone
contacts and provides analysis of the content.
                                                                                                      Page 19
                        Progress Has Been Made, but Additional Improvements
                         to the E-Help Desk Are Needed to Support Expanding
                                   Electronic Products and Services



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS e-help Desk Program is
providing quality customer service. To accomplish our objective, we:
I.      Determined the effectiveness of the process the IRS uses to ensure the e-help Desk is
        providing quality customer service. We accomplished this by meeting with responsible
        officials, performing walkthroughs of operations, and reviewing available guidance.
        A. Compared processes followed among IRS campuses1 and documented any
           differences. This included identifying opportunities to implement best practices.
        B. Assessed the e-file mandate’s effect on e-help Desk Program operations and
           readiness.
        C. Determined the types and statistical data used to monitor the e-help Desk process.
II.     Determined whether the IRS established a Customer Satisfaction Survey that effectively
        measures customer satisfaction.
        A. Obtained and reviewed the methodology followed for monitoring e-help Desk
           customer satisfaction.
        B. Attempted to determine the effect of customer satisfaction process deficiencies on the
           IRS’s ability to meet its customer satisfaction goals.
III.    Determined whether the IRS’s quality measurement process helps achieve the goals of
        the e-help Desk Program.
IV.     Determined the accuracy of the solutions and the accuracy and reliability of the
        management information system used in the e-help Desk Program.
V.      Determined whether the IRS has an effective process to prevent disclosure of customer
        information.
        A. Interviewed IRS management to determine what guidelines are in place to detect and
           prevent disclosures and to protect taxpayers whose information may have been
           inadvertently disclosed.



1
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 20
                     Progress Has Been Made, but Additional Improvements
                      to the E-Help Desk Are Needed to Support Expanding
                                Electronic Products and Services



       B. Reviewed available reports to determine the volume of disclosures and efforts taken
          in response to any inadvertent disclosures.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies, procedures, and
practices relative to quality assurance and ensuring that callers to the e-help Desk receive
accurate answers and quality service in a manner that is effective, efficient, and protects their
rights. We evaluated related controls by assessing the internal control environment, interviewing
management, and reviewing management reports.




                                                                                         Page 21
                    Progress Has Been Made, but Additional Improvements
                     to the E-Help Desk Are Needed to Support Expanding
                               Electronic Products and Services



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Lena M. Dietles, Audit Manager
Roberta A. Fuller, Lead Auditor
Robert J. Howes, Lead Auditor
Patricia Jackson, Senior Auditor




                                                                                    Page 22
                    Progress Has Been Made, but Additional Improvements
                     to the E-Help Desk Are Needed to Support Expanding
                               Electronic Products and Services



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner (Operations), Large Business and International Division SE:LB
Deputy Commissioner of Operations, Wage and Investment Division SE:W
Chief Financial Officer OS:CFO
Chief Technology Officer OS:CTO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Account Services, Joint Operation Center, Wage and Investment Division
SE:W:CAS:JOC
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Real Estate and Facilities Management OS:A:RE
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Senior Operations Advisor, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                     Page 23
                      Progress Has Been Made, but Additional Improvements
                       to the E-Help Desk Are Needed to Support Expanding
                                 Electronic Products and Services



                                                                                  Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Privacy and Security – Potential; 82,235 taxpayers, projected to 411,175 taxpayers
    over 5 years (see page 8).

Methodology Used to Measure the Reported Benefit:
Based on the CQRS Fiscal Year 2010 statistical sample review, projectable error rates were
obtained for two disclosure attributes: 1) the assistor determined the caller was not the taxpayer
or another individual authorized to receive the information (through research or other means) but
still disclosed tax information and 2) the assistor did not follow authentication procedures before
discussing tax account information. These error rates were projected on the volume of all calls
handled by the e-help Desk in Fiscal Year 2010 that were determined to present the opportunity
for a disclosure error. Without implementation of the recommended corrective actions, the
disclosure errors would persist. Therefore, 82,235 calls per year involving a disclosure error
were multiplied by 5 years.

Type and Value of Outcome Measure:
Inefficient Use of Resources – Potential $1,619,637; projected to $8,098,185 over 5 years (see
pages 13 and 18). 

Methodology Used to Measure the Reported Benefit:
    •   Each year 2 analysts expend a total of 1,525 hours signaling to e-help Desk assistors that
        they need to request caller participation in the e-help Desk Customer Satisfaction Survey.
        Our recommendation would eliminate the need for the analysts to perform this function,
        as the process would be automated. The IRS estimates that the hourly rate in Fiscal
        Year 2010 for an analyst was $29.76. Without corrective action, this inefficient use of
        resources would be expected to extend for at least 5 years. Therefore, without corrective
        action, this inefficient use of resources equals $45,384 annually and $226,920 over
        5 years.


                                                                                           Page 24
                     Progress Has Been Made, but Additional Improvements
                      to the E-Help Desk Are Needed to Support Expanding
                                Electronic Products and Services



    •   During Fiscal Year 2010, the e-help Desk received 42,387 calls that should not have been
        directed to the e-help Desk, as these callers should have contacted another IRS area or
        external agency. This volume represents a 32.4 percent increase over Fiscal Year 2009
        and a 105 percent over Fiscal Year 2008. The IRS estimates that on average each call
        answered by an assistor costs the Federal Government $37.14. We multiplied the per call
        cost of $37.14 by the 42,387 unsupported calls in Fiscal Year 2010 for a total of
        $1,574,253 annually. Without further action, the number of these calls would be
        expected to extend for at least 5 years, for a total of $7,871,265. 

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 2,806 international callers, projected to 14, 030 international
    callers over 5 years (see page 16).

Methodology Used to Measure the Reported Benefit:
The outcome was determined from the Fiscal Years 2007 through 2010 annual average of
international callers who lacked a toll-free option for calling the e-help Desk. These callers
would benefit if a toll-free option is implemented. We calculated the annual average of
international callers to the e-help Desk to be 2,806 individuals. The annual average was
extended for 5 years, for a total of 14,030 international callers expected to be burdened without
the recommended corrective action.




                                                                                           Page 25
                     Progress Has Been Made, but Additional Improvements
                      to the E-Help Desk Are Needed to Support Expanding
                                Electronic Products and Services



                                                                       Appendix V

            Overview of the E-Help Desk Customer
                 Satisfaction Survey Process




Source: Interviews with telephone analysts and auditor observations.

                                                                            Page 26
                  Progress Has Been Made, but Additional Improvements
                   to the E-Help Desk Are Needed to Support Expanding
                             Electronic Products and Services



                                                             Appendix VI

         E-Help Desk Program Quality Measures




Source: E-Help Desk Internal Revenue Manual guidelines.




                                                                    Page 27
                               Progress Has Been Made, but Additional Improvements
                                to the E-Help Desk Are Needed to Support Expanding
                                          Electronic Products and Services



                                                                                                  Appendix VII

                   Fiscal Years 2008–2010 Top 10 Services
                         Provided by the E-Help Desk

           Fiscal Year 2008                            Fiscal Year 2009                     Fiscal Year 2010
                              Call                                         Call                              Call
          Product1                                Product                                 Product
                             Volume                                       Volume                            Volume
 U.S. Individual Income
 Tax Return                  110,724     Form 1040 e-file                 86,352   Form 1040 e-file          89,976
 (Form 1040) e-file
 Registration                 53,054     Registration                     50,590   Registration              71,201
 Application                  52,948     Application                      48,609   Application               54,651
 e-Services Products          29,866     e-Services Products              29,464   e-Services Products       37,848
                                                                                   U.S. Corporation
                                                                                   Income Tax Return
                                                                                   (Form 1120) and
 Central Contractor                      Central Contractor
                              28,582                                      28,655   Return of                 35,258
 Registration                            Registration
                                                                                   Organization Exempt
                                                                                   From Income Tax
                                                                                   (Form 990) e-file

 Forms 1120 and 990                                                                Electronic Federal Tax
                              24,615     Forms 1120 and 990 e-file        19,858                             28,610
 e-file                                                                            Payment System

 Preparer Tax                            Electronic Federal Tax                    Central Contractor
                              18,286                                      18,297                             25,890
 Identification Number                   Payment System                            Registration
 Electronic Federal Tax                  Preparer Tax Identification               Preparer Tax
                              16,934                                      15,766                             21,180
 Payment System                          Number                                    Identification Number
                                         U.S. Income Tax Return
                                         for Estates and Trusts
                                                                                   Forms 1041and 1065
 Application Suitability      11,684     (Form 1041) and                  15,501                             15,595
                                                                                   e-file
                                         U.S. Return of Partnership
                                         Income (Form 1065) e-file
 Forms 1041 and 1065
                              10,726     94x e-file                       13,542   94x e-file                15,252
 e-file
Source: Enterprise Telephone Data Reporting System.




   1
       Definitions of the products are provided on the following page.
                                                                                                            Page 28
                               Progress Has Been Made, but Additional Improvements
                                to the E-Help Desk Are Needed to Support Expanding
                                          Electronic Products and Services



                                                        Product Definitions

 Application               Application to become an authorized e-file Provider (new or revised).


 Central Contractor        Central Contractor Registration is owned by the Department of Defense in partnership with the Wage and
 Registration              Investment Division Compliance function. The Taxpayer Identification Number matching process is a joint
                           effort between the General Services Administration, the Department of Defense, and the IRS to improve the
                           quality of data in Government acquisition systems. The Taxpayer Identification Number is mandatory in
                           Central Contractor Registration unless the vendor is located outside the United States and does not pay
                           employees within the United States. New registrants will go through the IRS Taxpayer Identification Number
                           validation process at the time of initial registration. Current vendors will go through the IRS Taxpayer
                           Identification Number validation process at the time of annual renewal.


 Disclosure                Electronic product that allows users to electronically submit Power of Attorney and Declaration of
 Authorization             Representative (Form 2848) or Taxpayer Information Authorization (Form 8821).


 Electronic Federal Tax    The Electronic Federal Tax Payment System enables business and individual taxpayers to pay Federal tax
 Payment System            payments electronically using Electronic Funds Transfer.


 Form 1040 e-file          Electronic submission of customer return data for individual taxpayers.


 Form 1041 e-file          Electronic submission of customer return data for estate and trust taxpayers.


 Form 1065 e-file          Electronic submission of customer return data for partnership taxpayers.


 Form 1120 e-file          Electronic submission of customer return data for corporate taxpayers.


 Preparer Tax              Preparer Taxpayer Identification Number issues. Prior to September 2010, the e-help Desk was responsible
 Identification Number     for issuance of the Preparer Tax Identification Number.


 Registration              Electronic product that allows eligible users to create an online account, which is the first step in gaining
                           access to IRS electronic products. A username, password, signature Personal Identification Number, and
                           secure mailbox are established as a result of a successful registration.


 Taxpayer Identification   Electronic product that enables users to electronically match a Taxpayer Identification Number with a
 Number Matching           taxpayer name.


 94x e-file                Series of employment/unemployment Tax Returns (Forms 940 and 941).



Source: E-Help Desk Internal Revenue Manual guidelines.




                                                                                                                                Page 29
      Progress Has Been Made, but Additional Improvements
       to the E-Help Desk Are Needed to Support Expanding
                 Electronic Products and Services




                                                Appendix VIII

Management’s Response to the Draft Report




                                                        Page 30
Progress Has Been Made, but Additional Improvements
 to the E-Help Desk Are Needed to Support Expanding
           Electronic Products and Services




                                                  Page 31
Progress Has Been Made, but Additional Improvements
 to the E-Help Desk Are Needed to Support Expanding
           Electronic Products and Services




                                                  Page 32
Progress Has Been Made, but Additional Improvements
 to the E-Help Desk Are Needed to Support Expanding
           Electronic Products and Services




                                                  Page 33
Progress Has Been Made, but Additional Improvements
 to the E-Help Desk Are Needed to Support Expanding
           Electronic Products and Services




                                                  Page 34
Progress Has Been Made, but Additional Improvements
 to the E-Help Desk Are Needed to Support Expanding
           Electronic Products and Services




                                                  Page 35
Progress Has Been Made, but Additional Improvements
 to the E-Help Desk Are Needed to Support Expanding
           Electronic Products and Services




                                                  Page 36
Progress Has Been Made, but Additional Improvements
 to the E-Help Desk Are Needed to Support Expanding
           Electronic Products and Services




                                                  Page 37
